IN THE
SUPREME COURT OF THE UNITED STATES
No.
CHARLES R. HUNTER,
Applicant,
v.
UNITED STATES OF AMERICA; STERLING MORTGAGE
AND INVESTMENT COMPANY
Respondents.
CERTIFICATE OF SERVICE
I, Daniel W. Weininger, a member of the Supreme Court Bar, hereby certify
that a copy of the attached Application to the Honorable Sonia Sotomayor for an
Extension of Time to File a Petition for Writ of Certiorari to the United States Court
of Appeals for the Sixth Circuit were served on:
Solicitor General
of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave, N.W.
Washington, DC 20530-0001

Bruce M. Gorosh
David E. Sims
FINKEL WHITEFIELD SELIK
32300 Northwestern Hwy.,
Ste. 22
Farmington Hills, MI 48334

Counsel for Respondents

Service was made by USPS first-class mail on July 15, 2019.

Daniel W. Weininger
Counsel of Record
ABRAHAM & ROSE, P.L.C.
30500 NORTHWESTERN HWY., STE. 410
FARMINGTON HILLS, MI 48334
(248) 251-0594
weiningerlaw@gmail.com
Counsel for Applicant

